      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General


                                                                         Washington, D.C. 20201




June 28, 2011

TO:             Donald M. Berwick, M.D.
                Administrator
                Centers for Medicare & Medicaid Services


FROM:           /Lori S. Pilcher/
                Acting Deputy Inspector General for Audit Services


SUBJECT:        Review of Medicaid Family Planning Services Claimed Under the Oregon Health
                Plan During the Period October 1, 2006, Through September 30, 2009
                (A-09-10-02043)


Attached, for your information, is an advance copy of our final report on Medicaid family
planning services claimed under the Oregon Health Plan. We will issue this report to the Oregon
Department of Human Services within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or Lori A.
Ahlstrand, Regional Inspector General for Audit Services, Region IX, at (415) 437-8360 or
through email at Lori.Ahlstrand@oig.hhs.gov. Please refer to report number A-09-10-02043.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103



June 29, 2011

Report Number: A-09-10-02043

Bruce Goldberg, M.D.
Director
Oregon Department of Human Services
500 Summer Street, NE
Salem, OR 97301

Dear Dr. Goldberg:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Family Planning Services
Claimed Under the Oregon Health Plan During the Period October 1, 2006, Through
September 30, 2009. We will forward a copy of this report to the HHS action official noted on
the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call
me, or contact Janet Tursich, Audit Manager, at (206) 615-2063 or through email at
Janet.Tursich@oig.hhs.gov. Please refer to report number A-09-10-02043 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Bruce Goldberg, M.D.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




  REVIEW OF MEDICAID FAMILY
  PLANNING SERVICES CLAIMED
UNDER THE OREGON HEALTH PLAN
      DURING THE PERIOD
   OCTOBER 1, 2006, THROUGH
      SEPTEMBER 30, 2009




                       Daniel R. Levinson
                        Inspector General

                           June 2011
                         A-09-10-02043
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Pursuant to section 1905(a)(4)(C) of the Act, States are required to furnish family planning
services and supplies to individuals of childbearing age who are eligible under the State plan and
desire such services and supplies. Section 1903(a)(5) of the Act and Federal regulations
(42 CFR § 433.10(c)(1)) authorize Federal reimbursement for family planning services at the
enhanced Federal medical assistance percentage (FMAP) of 90 percent (90-percent rate). Family
planning services prevent or delay pregnancy or otherwise control family size.

In Oregon, the Department of Human Services (State agency) administers the Medicaid program.
The State agency provides Medicaid family planning services under the Oregon Health Plan and
the Family Planning Expansion Project. This report focuses on fee-for-service claims for family
planning services provided to those Oregon Health Plan beneficiaries who were not enrolled in a
managed care plan or who elected to receive services outside such a plan. Another report
(A-09-11-02010) will focus on family planning services provided under the Family Planning
Expansion Project.

The Oregon Administrative Rules (OAR), § 410-130-0585, define family planning services as
those services that are intended to prevent or delay pregnancy or otherwise control family size.
The Oregon Health Plan covers family planning services for clients of childbearing age,
including minors who are considered to be sexually active. Pursuant to OAR § 410-130-0585(6),
for billing purposes, a family planning service must be coded with the most appropriate
diagnosis code related to contraceptive management.

During the period October 1, 2006, through September 30, 2009, the State agency submitted
fee-for-service claims totaling approximately $56 million ($51 million Federal share) for family
planning services provided to Medicaid beneficiaries under the Oregon Health Plan. We
reviewed $41 million (Federal share) of fee-for-service claims for family planning services that
did not contain appropriate diagnosis codes related to contraceptive management.

OBJECTIVE

Our objective was to determine whether the State agency claimed Federal reimbursement at the
90-percent rate for family planning services provided under the Oregon Health Plan in
accordance with Federal and State requirements.



                                                i
SUMMARY OF FINDING

The State agency did not always claim Federal reimbursement at the 90-percent rate for family
planning services provided under the Oregon Health Plan in accordance with Federal and State
requirements. Specifically, the State agency claimed some medical services that were not related
to family planning. Contrary to State requirements, the claims did not contain appropriate
diagnosis codes related to contraceptive management and thus were ineligible for reimbursement
at the 90-percent rate. However, these claims were eligible for reimbursement at Oregon’s
regular FMAP for the years in which the claims were paid. As a result, we calculated that the
State agency was overpaid $1,487,974 (Federal share) for these claims.

The overpayment occurred because the State agency’s Medicaid Management Information
System (MMIS) controls did not properly distinguish claims eligible for reimbursement at the
90-percent rate from claims eligible for reimbursement at the regular FMAP rate. In December
2008, the State agency implemented a new MMIS and changed its internal controls to properly
identify these claims.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $1,487,974 to the Federal Government and

   •   identify and refund any overpayments for family planning claims before October 1, 2006,
       that did not contain appropriate diagnosis codes identifying the claims as eligible for
       reimbursement at the 90-percent rate.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations
and provided information on actions that it had taken or planned to take to address the
recommendations. The State agency’s comments are included in their entirety as the Appendix.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION.................................................................................................................... 1

          BACKGROUND ........................................................................................................... 1
              Medicaid Program .............................................................................................. 1
              Medicaid Coverage of Family Planning Services .............................................. 1
              Oregon’s Medicaid Program .............................................................................. 1
              Oregon’s Medicaid Family Planning Programs ................................................. 2
              State Requirements for the Oregon Health Plan ................................................ 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................... 2
               Objective ............................................................................................................ 2
               Scope .................................................................................................................. 2
               Methodology ...................................................................................................... 3

FINDING AND RECOMMENDATIONS ............................................................................. 3

          FEDERAL REQUIREMENTS ...................................................................................... 4

          STATE REQUIREMENTS ........................................................................................... 4

          SERVICES NOT RELATED TO FAMILY PLANNING ............................................ 4

          RECOMMENDATIONS ............................................................................................... 5

          STATE AGENCY COMMENTS .................................................................................. 5

APPENDIX

          DEPARTMENT OF HUMAN SERVICES COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. Section 1115 of the Act authorizes demonstration
projects to assist in promoting the objectives of the Medicaid program.

Medicaid Coverage of Family Planning Services

Pursuant to section 1905(a)(4)(C) of the Act, States are required to furnish family planning
services and supplies to individuals of childbearing age who are eligible under the State plan and
desire such services and supplies. Section 1903(a)(5) of the Act and Federal regulations
(42 CFR § 433.10(c)(1)) authorize Federal reimbursement for family planning services at the
enhanced Federal medical assistance percentage (FMAP) of 90 percent (90-percent rate).

Section 4270 of the CMS State Medicaid Manual (the Manual) states that family planning
services include those that prevent or delay pregnancy or otherwise control family size and may
also include infertility treatments. The Manual indicates that States are free to determine which
services will be covered as long as those services are sufficient in amount, duration, and scope to
reasonably achieve their purpose. However, only services clearly furnished for family planning
purposes may be claimed for Federal reimbursement at the 90-percent rate.

Oregon’s Medicaid Program

In Oregon, the Department of Human Services (State agency) administers the Medicaid program.
The State agency uses the Medicaid Management Information System (MMIS), a computerized
payment and information reporting system, to process Medicaid claims for payment by the
Statewide Financial Management Application. The expenditures related to the claims are
reported on Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program, for Federal reimbursement.

The Federal share of the Medicaid program is determined by the FMAP. During our audit
period, the FMAP in Oregon was 61.07 percent (October 1, 2006, through September 30, 2007),
60.86 percent (October 1, 2007, through September 30, 2008), and between 71.58 and
72.61 percent (October 1, 2008, through September 30, 2009).




                                                 1
Oregon’s Medicaid Family Planning Programs

The State agency provides Medicaid family planning services under the Oregon Health Plan and
the Family Planning Expansion Project, both of which are section 1115 demonstration projects.
This report focuses on fee-for-service claims for family planning services provided to those
Oregon Health Plan beneficiaries who were not enrolled in a managed care plan or who elected
to receive services outside such a plan. Another report (A-09-11-02010) will focus on family
planning services provided under the Family Planning Expansion Project.

CMS approved a section 1115 waiver for the Oregon Health Plan beginning on February 1,
1994. The goal of the waiver was to expand eligibility, prioritize the list of health services
provided to beneficiaries, and increase the use of managed care. Through the Oregon Health
Plan, the State agency provides health care to Oregonians who have applied and been determined
eligible with incomes up to 185 percent of the Federal poverty level.

State Requirements for the Oregon Health Plan

The Oregon Administrative Rules (OAR), § 410-130-0585, define family planning services as
those services that are intended to prevent or delay pregnancy or otherwise control family size.
The Oregon Health Plan covers family planning services for clients of childbearing age,
including minors who are considered to be sexually active. Family planning services include
annual exams; contraceptive education and counseling to address reproductive health issues;
laboratory tests; radiology services; medical and surgical procedures, including tubal ligation and
vasectomies; and pharmaceutical supplies and devices.

Pursuant to OAR § 410-130-0585(6), for billing purposes, a family planning service must be
coded with the most appropriate International Classification of Diseases (ICD) 1 diagnosis code
in the V25 series (Contraceptive Management).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Federal reimbursement at the
90-percent rate for family planning services provided under the Oregon Health Plan in
accordance with Federal and State requirements.

Scope

During our audit period (October 1, 2006, through September 30, 2009), the State agency
submitted fee-for-service claims totaling $56,176,373 ($50,551,310 Federal share) for family
planning services provided to Medicaid beneficiaries under the Oregon Health Plan.

We reviewed $45,784,251 ($41,198,400 Federal share) of fee-for-service claims for family
planning services that did not contain appropriate diagnosis codes within the V25 series. We did

1
    International Classification of Diseases, 9th Revision, Clinical Modification (ICD-9-CM).


                                                           2
not review the remaining $10,392,122 ($9,352,910 Federal share) because these claims
contained appropriate diagnosis codes within the V25 series.

We did not review the overall internal control structure of the State agency or the Medicaid
program. Rather, we reviewed only the internal controls that pertained directly to our objective.

We conducted our audit from March to December 2010 and performed our fieldwork at the State
agency’s office in Salem, Oregon.

Methodology

To accomplish our objective, we:

   •   reviewed Federal and State laws, regulations, and guidance and the approved State plan;

   •   reviewed the demonstration project requirements for the Oregon Health Plan;

   •   held discussions with CMS officials to gain an understanding of CMS guidance furnished
       to State agency officials concerning Medicaid family planning claims;

   •   held discussions with State agency officials to gain an understanding of State policies and
       procedures for claiming Federal reimbursement for family planning services;

   •   obtained family planning claim data from the State agency’s MMIS;

   •   reconciled family planning claim data to Form CMS-64;

   •   identified claims for services that did not have the most appropriate diagnosis codes
       within the V25 series; and

   •   calculated the unallowable Federal reimbursement claimed by the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

The State agency did not always claim Federal reimbursement at the 90-percent rate for family
planning services provided under the Oregon Health Plan in accordance with Federal and State
requirements. Specifically, the State agency claimed some medical services that were not related
to family planning. Contrary to State requirements, the claims for services did not contain
appropriate diagnosis codes related to contraceptive management and thus were ineligible for
reimbursement at the 90-percent rate. However, these claims were eligible for reimbursement at


                                                3
Oregon’s regular FMAP for the years in which the claims were paid. As a result, we calculated
that the State agency was overpaid $1,487,974 (Federal share) for these claims.

The overpayment occurred because the State agency’s MMIS controls did not properly
distinguish claims eligible for reimbursement at the 90-percent rate from claims eligible for
reimbursement at the regular FMAP rate. In December 2008, the State agency implemented a
new MMIS and changed its internal controls to properly identify these claims.

FEDERAL REQUIREMENTS

Pursuant to section 4270.B of the Manual, States are free to determine which family planning
services will be covered as long as they are sufficient in amount, duration, and scope to
reasonably achieve their purpose. However, the Manual states that only services clearly
furnished for family planning purposes may be claimed for Federal reimbursement at the
90-percent rate.

STATE REQUIREMENTS

The State plan provides for family planning services for Medicaid-eligible individuals of
childbearing age with limitations as specified. 2

Pursuant to OAR § 410-130-0585(6), providers must “bill all family planning services with the
most appropriate ICD-9-CM diagnosis code in the V25 series (Contraceptive Management) ….”

SERVICES NOT RELATED TO FAMILY PLANNING

The State agency initially claimed $41,198,400 (Federal share) of medical services provided
under the Oregon Health Plan that were not related to family planning. Contrary to State
requirements, the claims for services did not contain appropriate V25 diagnosis codes and thus
were not eligible for reimbursement at the 90-percent rate. Examples of these diagnosis codes
were V20.2, routine infant or child health check; V22.1, supervision of other normal pregnancy;
465.9, acute respiratory infection of unspecified site; and 250.00, diabetes mellitus.

The claims for medical services were eligible for reimbursement at Oregon’s regular FMAP for
the years in which the claims were paid. We calculated that the State agency was overpaid
$12,884,829 (Federal share) for these claims.

In January 2007, the State agency discovered that since 2005, the claimed amount of family
planning services had increased from 4 percent to 40 percent of total physician services. The
increase occurred because the State agency’s MMIS controls did not properly distinguish claims
eligible for reimbursement at the 90-percent rate from claims eligible for reimbursement at the
regular FMAP rate. Before our audit, the State agency determined that it had overclaimed
services unrelated to family planning and had been improperly reimbursed $11,396,855 (Federal


2
 Family planning services are provided subject to the rules and procedures set forth in OAR Division 130,
“Medical-Surgical Services,” and the billing instructions for Oregon Medical Assistance programs.


                                                        4
share) for the period October 1, 2006, through September 30, 2009. As a result, the State agency
made adjustments for this amount on Form CMS-64. 3

The difference between our calculated overpayment ($12,884,829) and the State agency’s
adjustments ($11,396,855) represents the remaining overpayment, totaling $1,487,974. The
remaining overpayment exists because we analyzed final claim data, whereas the State agency
analyzed quarterly expenditure data coded as family planning.

In December 2008, the State agency implemented a new MMIS and changed its internal controls
to properly identify allowable family planning claims. State agency officials informed us that
they had made changes to provider contracts to require providers to use specific diagnosis codes
when claiming family planning services. In addition, the State agency plans to monitor the
Form CMS-64 reporting process.

RECOMMENDATIONS

We recommend that the State agency:

       •   refund $1,487,974 to the Federal Government and

       •   identify and refund any overpayments for family planning claims before October 1, 2006,
           that did not contain appropriate diagnosis codes identifying the claims as eligible for
           reimbursement at the 90-percent rate.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations
and provided information on actions that it had taken or planned to take to address the
recommendations. The State agency’s comments are included in their entirety as the Appendix.




3
    We verified the State agency’s adjustments for reimbursements unrelated to family planning services.


                                                           5
APPENDIX
                                                                           Page lof5


APPENDIX: DEPART:MENT OF HU:MAN SERVICES CO:M1o.1ENTS




  April21,2011



  Lori A. Ahl strand
  Regional Inspector General for Audit Services
  Department of Health ~nd Human Ser. ices
  Office of Alldit Services, Regio n IX
  90 - 7tn Str&et, Suit& 3-850
  San Francisco, CA 94103

  Re: Report Ntl11ber A-W.-10-02043

  D e~r   Ms. Ahl strand

  The Oregoo Department of Hum"n Services "pp""'i~t"" th e
  opportunity to respooo to the draft report entt led Revi8W or F~mlly
  Plallning Services Claimed Unrje,' the Grogan Health Plan DUling the
  Pflriod Oc/Door 1, 2006, Tf1roogh S ..pt9mb .... 30, 2009 from the US
  Department or Health and Human Services, Office of Inspector
  General.

  w ~ C"""lor with th ~ recommrndation5 mad ~ in the draft report mid
  will corrad the priDf perKld claiming for family planning services.
  Below We have provided the department'~ responses to the
  recommendation~ fOllnd within too draft report.


  We recommend that the State agency refund $1,487,974 to the
  Federal Government.

  The department concurs with this rei:orrrmendation,

  The department has m!ld e an ~djLtS!ment in our prior period cItIiming
  of fam~y planning &6I'Vi= ill the amount of $1 ,481,974. This
  adjustment wi. be reflected in our eMS 64 reporting for the qlJarter
  ending M ar~h 31, 2011. The department will also dffiermine the
                                                                            Page2of5




Ms. Lori A. Ahlstrand
OffICE! of Audit Services, Region IX
Page20fS                 .

amount of any adjustments necessary to reflect the appropriate
match rates in the claiming rates for family planning services claimed
under the Oregon Health Plan (OHP) for the periods since September
30, 2009. Further, the department has made adjustments to our          -,
information systems to correctly claim family planning services at the
appropriate match rates going forward. These initial changes were
implemented in late July and early August 2010. Further changes
were made and verified in December 2010.

Department analysis of ctaims data during the audit revealed that the
new Medicaid Management Information System (MMIS), due to its
increased capacity, functionality and design, has more accurately
captured family planning services eligible for 90% match since its
implementation in December of 2008. As mentioned above, the
analysis also revealed that there were small modifications still
needed. Some of these modifications further reduce the likelihood
services would be incorrectly categorized as family planning, and
some of the modifications enable the department to claim the higher
match rate on family planning services that we were previously
missi ng,

Examples of changes made to the MMIS system include an audit and
subsequent adjustment to the provider types we accept family
planning claims from, adding drug IUD codes, restricting certain
family planning procedure codes to specific diagnoses that must be
billed in conjunction with those procedure codes, restricting
diagnoses codes accepted for family planning services to the fifth
digit of specificity, adding more proced,ure codes, restricting the age
of the client for acceptance of claims as family panning services,
adding J-code restrictions by age and diagnosis for injections to be
accepted as family planning services, adjustments to the modifiers
that are accepted as family planning services.

As part of the department's ongoing monitoring and internal controls,
the eMS 64 report!ng of claims expense for claiming of fegeral match
at the family planning rate is being reviewed, going forward, by the
Division of Medical Assistance Prog rams (DMAP), Policy and
Program Management Section, and by others in the Budget Unit, to
ensure any anomalies in amounts claimed as family planning are
                                                                          Page 3 of5




Ms. Lori A. Ahlstrand
Office of Audit Services, Region IX
Page 3 of 5

discovered quickly, and can be corrected before submission , or
adjusted in the next quarter.

We recommend that the State agency identify any overpayments
for family planning claims before October 1, 2006, that did not
cOf"!tain appropriate diagnosis codes identifying the claims as
eligible for reimbursement at the gO-percent rate.

The department concurs with the recommendation.

The department maintains financial data beginning January 2001 ,
and claims data beginning December 2001 , based on paid date, in
our current Decision Support and Surveillance Utilization Review
System (DSSURS). A majority of the data (prior to December 2008)
is converted data from our prior legacy MMIS system. Further, we
have prior legacy system data dating back to January 1998 in a
searchable DB2 format.

We have hard copy eMS 64 information for most quarters dating
back to the first quarter of Federal Fiscal Year 2001. We have also
located hard copy Medicaid reporting information for a few quarters
going back to September 1995. In addition, we have access to CMS
64 reporting information online through the Medicaid Budget and
Expenditure System (MBES) through the first quarter of Federal
Fiscal Year 1989.

The department does not have Statewide Financial Management
Application (SFMA) detailed accounting data before July 1, 2005.

As was discussed during the audit, the department has historically
monitored the expenditure and match rates for Family Planning
Physicians' Services claims . This analysis goes back to July 1, 2003.
For each month since July 2003, DMAP Budgel Unit staff tracked
information from the SFMA database records for expenditures and
revenue. This data is contained in summary form in an Excel
spreadsheeUdatabase, which lists the monthly data by type of
service; e.g ., Fully Capitated Health Plan (managed care) and fee-for­
service categories, including Physicians' Services. The achieved
                                                                           Page40fS




Ms. Lori A. Ahlstrand
Office of Audit Services. Region IX
Page 4 of 5

match rate is calculated from this high-level information , by
comparing the federal funds to the total funds spent by category.

In June 2007, the department made an adjustment resulting in a net
$7.7 million federal fund reduction for family planning claims
processed between July 1, 2005 and September 3D, 2006. These
adjustments were based on estimates from the DSSURS analysis.
This analysis estimated that approximately 4.25% of the Physicians'
Services claims processed to that point in the bienn ium qualified for
the family planning enhanced rate.

Our available Budget Unit records indicate that at the time the 2003­
2005 analysis was completed, the department claims data found that
approximately 8.5% of the Physicians' Services claims qualified for
enhanced funding under approved procedure codes. This analysis
resutted in a prospective reduction of approximately $13 million in
federal funds. However, this prospective adjustment was not made.
Instead this prospective adjustment was offset by the prospective
under claiming of federal funds for the Medicaid Buy-In program.
During the period of October 2004 to January 2005, the majority of
these eligible Buy-In program claims were expended at 100% state
funds. This resulted in an estimated under claiming of approximately
$13.5 million in federal funds. The department chose to not make
either adjustment at that time.

Based on our review of the eMS 64 information for Federal Fiscal
Years 2001, 2002 and the first three quarters of 2003, the level of
Physicians' Services claims charged at the enhanced family planning
rate appears relatively consistent with the average lower (post­
adjustment) amounts for the other years discussed above. This
expenditure level continued until the final quarter of Federal Fiscal
Year 2003, when the Physicians' Services claims charged at the
enhanced family planning rate increased substantially. We speculate
this was the result of system coding changes that were made during
June and July 2003. Given the information available , we believe the
coding problem identified in the audit most likely began in late June or
early July 2003.
                                                                                      Page50f5




Ms. Lori A. Ahlstrand
Offi~ of Audit Services, Region IX
Page 5 of 5

Based on the above information, we will analyze our available
OSSURS claims and financial data, CMS 64 reporting data, and
Budget Unit and accounting documentation to determine and make
appropriate adjustments for any net remaining amount owed to the
federal government.

To accomplish this for the last three quarters of Federal Fiscal Year
2002 and first three quarters of Federal Fiscal Year 2003 , we will'':Jse
our DSSURS claims and financial data and CMS 64 reports to
analyze the coding and reporting of OHP Family Planning selVices.

      • 	 Th is will allow for analysis of available claims and fina ncial data
          from our current DSSURS .
      • 	 This will review claims for a period of 18 months prior to when
          we suspect the system coding problem began .

For the period of July 2003 through June 2005, we will review our
DSSURS , CMS 64 and available Budget Unit documentation to
determine the accuracy of our initial analysis addressed above. For
the period of July 2005 through September 2006, we will review the
original adjustments by analyzing available accounting, Budget Unit,
OSSURS and CMS 64 information.

Once again, thank you for this opportunity to respond to the
recommendations found within Report Number A-09-10-02043. If you
have any questions or concerns with the department's responses,
please feel free to contact me or contact Dave Lyda , the department's            ,
Chief Audit Officer at 503-945-6700 or through e-mail at
dave.m.lyda@state.or.us.

Sincerely,

Jim Scherzinger

Jim Scherzinger
Deputy Director of Finance
Oregon Department of Human SelVices

cc:     Dave Lyda, Chief Audit Officer
